Audit Report

Office of Justice Programs Bureau of Justice Assistance, 
Construction of the Adult and Juvenile Correctional Components of the
Colville Justice Center Grant Awarded to the Confederated Tribes of the 
Colville Indian Reservation, Nespelem, Washington

Audit Report No. GR-90-05-005


December 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the grant for the construction of the adult and juvenile correctional components of the Colville Justice Center, awarded by the Office of Justice Programs (OJP), Bureau of Justice Assistance, to the Confederated Tribes of the Colville Indian Reservation (CTCIR), Nespelem, Washington.  The purpose of this grant was to construct a correctional facility on tribal land located near the Colville Indian Agency.  We tested the CTCIRs accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and  terms and conditions of the grant.

Our audit revealed that controls over the accounting process and records related to the grant were adequate.  We reviewed CTCIRs compliance with essential grant conditions and found weaknesses in CTCIRs accounting records.  As a result of the conditions identified below, we question $751,589 in grant funds received.1

The CTCIR did not provide the appropriate amount of local match funds of $508,839 for the initial grant which resulted in the CITCIR receiving excess reimbursement.

	Unsupported personnel costs of $236,719 were claimed.

	Indirect costs claimed were overstated by $6,031.

We also found that the financial status reports had not been timely submitted to the OJP as required.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.
   



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.